                             Closeout for M99080045

        On August 31, 1999, the Office of Inspector General (OIG) received a letter
alleging possible fabrication data by two research scientists' funded by NSF grants.2 As
this letter provided no specific details of this alleged fabrication of data, our office
requested additional information from the ~ o m ~ l a i n a n tHowever,
                                                                .~       the complainant
could not provide any specific details or documentary evidence and agreed the allegation
could be the result of a simple misunderstanding. Accordingly, this inquiry is closed.


Cc: Integrity, IG




1
    [footnote redacted]
2
    [footnote redacted]
3
    [footnote redacted]


                                    Page 1 of 1
